                                                                 NAnONAL SCIENCE FOUNDA nON
                                                                  OFFICE OF INSPECTOR GENERAL
                                                                    OFFICE OF INVEStIGAnONS

                                                        CLOSEOUT MEMORANDUM

    Case Number: 1-09-06-0027                                                                          Page 1 of 1



                                                                                             1                 2
                    This investigation was initiated based on information received that the PI of an NSF award had .
                    a personal relationship with the primary contractor3 on the award. Further, information received
                    suggested that the equipment4 to be built by the contractor had not been delivered.

                    Subsequent investigation, which included a review of the contract file and all emails between the
                    PI and the contractor, failed to reveal any indication of contract fraud or other wrongdoing. The
                    equipment was ultimately delivered to the university.

                    Accordingly, this investigation is closed.




                    2
                    3
                    4




    N~f       OIG Fonn 2 (11102)
.   ~.,   "     "   '
